April 14, 2020
The Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543-0001
Re: No. 19-1184, Bruni v. City of Pittsburgh
Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Petitioners Nikki Bruni, et al. hereby
give blanket consent to the filing of amicus curiae briefs in support of either or of
neither party in the above-referenced case, with respect to the petition for writ of
certiorari filed on March 26, 2020. Thank you for your assistance.
Sincerely,

John J. Bursch
Counsel for Petitioners
cc:

Julie Koren, City of Pittsburgh Law Department
414 Grant Street, 313 City-County Building
Pittsburgh, PA 15219
julie.koren@pittsburghpa.gov
Counsel for Respondents

